HHS/OIG, Audit - "Review of Medical and Ancillary Medicaid Claims for 21 to 62 Year Old Residents of State-Operated Psychiatric Hospitals That Are Institutions for Mental Diseases in California During the Period July 1, 1997 Through February 28. 2001," (A-09-01-00107)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medical and Ancillary Medicaid Claims for 21 to 62 Year Old
Residents of State-Operated Psychiatric Hospitals That Are Institutions for
Mental Diseases in California During the Period July 1, 1997 Through February
28. 2001," (A-09-01-00107)
December 5, 2002
Complete Text of Report is available in PDF format
(2.85 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of medical and ancillary Medicaid
claims for 21 to 64 year old residents of state-operated psychiatric hospitals
that are institutions for mental diseases in California during the period of
July 1, 1997 through February 28, 2001.  This audit is part of our
ongoing review of Medicaid billings for patients in institutions for mental
diseases (IMD).  The objective of this audit was to determine if the state
of California had adequate controls to preclude claiming federal financial participation
(FFP) under the Medicaid program when 21 to 64 year old residents of state-operated
IMDs received physician services, laboratory and clinic services, and hospital
outpatient treatment.  Federal Medicaid law and regulations prohibit FFP
for this care.  Our review disclosed that although the state did not have
specific edits to prevent it from claiming FFP, only a minor amount of unallowable
FFP was claimed for medical and ancillary services.  We concluded that
the state was in substantial compliance with federal rules prohibiting claims
for FFP under the Medicaid program for medical and ancillary services provided
to residents 21 to 64 years old in its two state-operated psychiatric hospitals.